<html>
<title> - HIGH-TECH MEDICINE: REACHING OUT TO SENIORS THROUGH TECHNOLOGY</title>
<body><pre>[Senate Hearing 107-690]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-690
 
     HIGH-TECH MEDICINE: REACHING OUT TO SENIORS THROUGH TECHNOLOGY
=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             POCATELLO, ID

                               __________

                              JULY 2, 2002

                               __________

                           Serial No. 107-28

         Printed for the use of the Special Committee on Aging





                       U. S. GOVERNMENT PRINTING OFFICE
81-855                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001

?

                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho, Ranking Member
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           JOHN ENSIGN, Nevada
DEBBIE STABENOW, Michigan            CHUCK HAGEL, Nebraska
JEAN CARNAHAN, Missouri              GORDON SMITH, Oregon
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Larry E. Craig......................     1

                                Panel I

Dr. Beth Hudnall Stamm, Research Professor and Director of 
  Telehealth, Institute of Rural Health, Idaho State University..     3
Wallace Whitehead, Former Postmaster, Lava Hot Springs, ID.......     7
Alice Ennis, Director of Home Health, Saint Alphonsus Regional 
  Medical Center, Boise, ID......................................     9
Demonstration by Marilyn Richards, Certified Wound Care Nurse, 
  Saint Alphonsus Home Health....................................    11
Tom Hauer, Director, Telehealth, North Idaho Rural Health 
  Consortium, Coeur D'Alene, ID..................................    13
Dr. Bruce Miewald, Attending Psychiatrist, Kootenai Medical 
  Center, Medical Director of Child and Adolescent Psychiatric 
  Clinic: and Medical Administrator of the Outpatient Residential 
  Youth Service, North Idaho Behavioral Health...................    15
Mary Hendrickson, Sandpoint, ID..................................    17

                                 (iii)

  


 FIELD HEARING ON HIGH-TECH MEDICINE: REACHING OUT TO SENIORS THROUGH 
                               TECHNOLOGY

                              ----------                              


                         TUESDAY, JULY 2, 2002

                                       U.S. Senate,
                                Special Committee on Aging,
                                                      Pocatello, ID
    The committee met, pursuant to notice, at 5 p.m., in the 
ISU Media Distance Learning Center, Room 66, Idaho State 
University, Pocatello, ID, Hon. Larry Craig presiding.
    Present: Senator Craig.

            OPENING STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. I would like to call this meeting and 
hearing of the Senate Special Committee on Aging together. I 
want to thank you all very much for coming out this afternoon. 
This is a first and a very unique hearing that we are holding 
here in Pocatello and on the campus of Idaho State today 
because it is not only being heard here, and we have testifiers 
here for the record today, but also we will take testimony from 
people in Boise and in Coeur d'Alene.
    I think if you look at the screen behind me now you will 
see people in Boise. Then we will also be tied into Coeur 
d'Alene, to a conference room in the medical center in Coeur 
d'Alene. We are doing this first and foremost to demonstrate 
the capability our State now has and is developing and 
enhancing in telemedicine.
    As most of you know, I grew up in rural Idaho. I was 
telling someone with a local television station here that I 
grew up on a ranch. The nearest doctor was 50 miles away.
    So rural health in Idaho has always been a challenge. But 
it becomes increasingly so as we lose some of our small 
hospitals in our communities, as health care begins to 
regionalize, and as our citizens grow older and want to stay in 
their small communities and be safe in those small communities 
and at the same time find themselves at a stage in their life 
where their need for health care rapidly increases.
    As many of you know, I was once Chairman and am now the 
Ranking Member of this Special Committee on Aging in the 
Senate. We spend a good deal of our time looking at the Federal 
programs that are provided for seniors today and what can be 
done to enhance overall health care for our seniors.
    My staff director is with me today who works on my behalf 
in that committee, Lisa Kidder, who handles health care on that 
committee. Also some of my personal staff is with me today 
along with Francoise Cleveland of my Pocatello staff and some 
of my folks both from Boise and from Washington.
    One of the opportunities I have had in working with the 
facility here at Idaho State and in my capacity on the 
Appropriations Committee in the Senate is to look for 
opportunities and help facilitate grants that have been able to 
expand the capability and the capacity here in Idaho for 
telehealth. We have been able to do that in a variety of ways 
both here at Idaho State and in north Idaho over the last 
several years that rapidly accelerates our ability to bring 
this kind of health care system to the seniors of our State.
    We have a variety of folks this afternoon who are Idaho 
specialists in the field of telehealth to testify to the 
committee. Also I am going to at a point in the program break 
and go to the back of the room and have a health exam. Now, 
last I checked, I was in pretty good health.
    But what is important about the health exam that you will 
see today is that this unit is the kind of unit that can now be 
brought into the home anywhere in Idaho, plugged into the 
telephone, and instantly you have not only the ability to 
transmit information digitally, but you can transmit active 
video so that a nurse can actually bring this into the home of 
a senior and read their vital signs, if you will. You will see 
that this afternoon.
    I think that is clearly an exciting feature for our State 
that we have watched grow and now with this new technology, it 
is becoming real to all of us.
    About a decade ago when I began to work with Qwest and 
pushed them, as did the State legislature in Idaho, to wire 
Idaho with fiber optics, we knew that in the future these kinds 
of technologies could become readily available to our entire 
State. That is now pretty much the case. Nearly all of Idaho is 
wired in that regard; and, therefore, the ability to transmit 
high quality is the kind of stuff you will see this afternoon 
that is being transmitted on the fiber optic cable across our 
State that makes this kind of telecommunication literally real-
time. Of course, in health care that becomes extremely 
valuable.
    Let me now turn to our witnesses. We're going to ask them 
in giving testimony this afternoon to talk about their 
relationship to this program and what it offers. Also I will be 
asking a few questions of them. As I say, you will hear 
testimony from two witnesses here, one in Boise, and two in 
Coeur d'Alene.
    Our first witness is really--I doubt that Dr. Beth Hudnall 
Stamm wants to be called a pioneer, but she is. She truly is a 
pioneer in Idaho's telemedicine area. She is Director of the 
telehealth facility here at Idaho State. We are using that 
facility this afternoon for this hearing and demonstrating it. 
So Beth has done a marvelous job in working across the State, 
but also in bringing resources to Idaho State University to 
head up this program.
    So Doctor, let me turn to you to offer your testimony.

  STATEMENT OF DR. BETH HUDNALL STAMM, RESEARCH PROFESSOR AND 
DIRECTOR OF TELEHEALTH, INSTITUTE OF RURAL HEALTH, IDAHO STATE 
                           UNIVERSITY

    Dr. Hudnall Stamm. Thank you, Senator Craig. Senator Craig, 
members and staff of the Senate Special Committee on Aging, and 
your  personal  staff,  we  are  honored  to have  you  here  
with  us tonight. We are very excited that the Special 
Committee on Aging has chosen Idaho for this field hearing on 
telehealth. We are also appreciative of the support that you 
have given us to make telehealth happen in Idaho.
    My name is Dr. Beth Hudnall Stamm, and I am a Research 
Professor and Director of Telehealth at the Institute of Rural 
Health at Idaho State University. I am also the principal 
investigator of Telehealth Idaho, a state-wide telehealth 
project funded by the Office for the Advancement of Telehealth 
at the Health Resources and Service Administration of the 
Department of Health and Human Services.
    As you know, tonight we have connected three regions of our 
State for tonight's hearing. As we progress through the 
testimony tonight, we will virtually travel across our State.
    Let me begin here in the southeast corner. I will begin by 
providing an overview of telehealth and share with you 
information about Telehealth Idaho and about our Senior Health 
Mobile. Mr. Wallace Whitehead, who is here with us, formerly 
the Postmaster in Lava Hot Springs, will share his experiences 
as a consumer of services provided through the Senior Health 
Mobile.
    After our testimony tonight and you have asked us the 
questions that you would, we would invite you to come out to 
the yard and to enjoy ice cream to kick off the Fourth of July 
weekend. We thought that would be an appropriate thing. We also 
have the Senior Health Mobile parked outside. We would invite 
you and all of the other participants to view and come through 
the Senior Health Mobile.
    The first thing I would like to do tonight is to define 
telehealth. People ask that often.
    According to the Office for the Advancement of Telehealth, 
telehealth is the use of electronic information and 
telecommunication technologies to support long distance 
clinical healthcare, patient and professional related health 
information, public health, and health administration. 
Telemedicine, which is a subset of telehealth, refers to the 
use of telecommunications to provide clinical care at a 
distance.
    The application of technology to telehealth is nearly 
limitless, but it can generally be categorized into two types--
store-and-forward technologies or what we call asynchronous 
technology, or real-time technology which is what we call 
synchronous technology.
    Store-and-forward technology allows one party to collect 
and manipulate information and then send it to another person 
who can then look at that information at their convenience. It 
is similar to sending an E-mail. Of course privacy concerns 
mean that we do not do it exactly the same as sending an E-
mail, but it would be like sending an E-mail with an 
attachment.
    The second type of activity, synchronous activity, is what 
we are doing here tonight. In that case a patient may be in one 
place and a provider in another. Other than the telephone, 
viewing of health information such as on the web is the most 
common telehealth activity. According to studies in 2000, about 
37 percent of Americans have viewed health information online 
at least three times in the past year.
    When considering applications that involve two or more 
parties, asynchronous or store-and-forward applications are the 
most common. Synchronous applications where a patient would be 
in one place and a provider in another are an important part of 
what we do, but actually a small percentage of the overall 
activities.
    At this point I would like to shift from technology to 
talking about the older rural residents of the United States, 
and particularly of Idaho. Statistically older rural adults 
have more health risk factors than their urban counterparts.
    This resident may be a man, but is statistically more 
likely to be a woman. She is dependent, at least in part, on 
the public sector for her health care. She has access to fewer 
resources for independent living, and she is one of the growing 
number of older rural residents who form a disproportionate 
share of the rural population. As you know, her economy is 
fragile, often dependent on retirement income rather than on 
production economy to keep their businesses open.
    If she is a rural woman, she is more likely than her urban 
counterparts to have been exposed to a traumatic event. She 
also has an ongoing problem with access to care because she is 
served by fewer  and less  highly  trained  health  
professionals  who are  often reimbursed by Medicaid at lower 
rates. She is likely taking psychotropic medications prescribed 
by someone not trained in their use.
    Access to healthcare is more difficult for Idahoans than 
almost any other people in the United States. U.S. federally 
designated physical, mental/behavioral, and oral health 
profession shortage areas cover 73 to 93 percent of our State. 
Idahoans face many health  care  challenges  including  severe  
work force  shortages, difficult geography and climate, 
inadequate infrastructure, and isolation.
    These factors make it difficult for patients to get care 
and difficult for providers to provide care. For example, 
providers in rural areas often face working conditions that 
induce negative consequences such as burnout and compassion 
fatigue that can lead to high turnover and increased risk for 
medical error.
    Telehealth is one way we can address these challenges. We 
can increase the number of providers we have through new and 
upgraded education. We can extend the providers that we have 
through telehealth through case conferences, supervision, 
consultation, and home health. We can also preserve our 
existing professional work force through increased quality of 
life, and reduce the negative effects of care giving by 
providing them with professional support.
    Telehealth Idaho seeks to improve Idaho health care access 
through its health care work force. The project has three 
parts--the Telehealth Idaho Toolbox which is an online 
professional health resource center that includes virtual 
program centers; we also have an Integrated Care Center for 
consultation, supervision, case conferencing and home health. 
The third area that we work in is educational 
telecommunications which uses the existing telecommunications 
resources to reach 50 of Idaho's 202 towns with the kind of 
technology we are using tonight.
    One of the projects we extend our existing providers with 
is the Senior Health Mobile. This mobile health van is a 
collaborative project of the Idaho Rural Health Education 
Center of Mountain States Group and the Kasiska College of 
Health Professionals here at Idaho State University, and the 
Idaho Area V Agency on Aging.
    The Senior Health Mobile travels around southeast Idaho and 
performs health/functional assessments, identifies imminent 
needs, and offers short-term intervention. The project, which 
won the 2001 Governor's Award of Excellence, provides care for 
seniors and also importantly provides training for students.
    One of the things we are doing to extend telehealth into 
the Senior Health Mobile is to put videophones on the Senior 
Health Mobile. Those allow us to provide supervision to the 
students, and to increase the areas of supervision for the 
supervisors who travel on the van. For example, a nurse may be 
accompanying the students on the van. But the students may be 
in nursing, they may be physical therapy, or they may be in 
counseling. So we can actually link them back to a supervisor 
in a specialty area if we need that.
    The other thing that I think is actually the most fun thing 
that we are doing with the Senior Health Mobile is that we have 
a lending library of videophones. If somebody who gets care 
from the Senior Health Mobile needs follow-up, we can actually 
loan them a videophone, and leave it in the community. Then the 
next time the van comes by, if they don't need the phone 
anymore, we pick it up.
    I am sure you immediately recognize the rural ``book 
mobile'' concept, but we've extended it down to technology. We 
really feel excited about it because our students are able to 
go with the family members into the home, help them connect to 
the videophone, and then we can stay in touch with them through 
a period of transition.
    Thank you, Senator, for hearing our testimony tonight. I 
look forward to continued exciting development in telehealth in 
the State of Idaho.
    Senator Craig. Doctor, thanks very much for that testimony. 
I'm sitting here thinking of the application of this technology 
and how it gets used in the field.
    I came to the State senate in 1974 as a State senator. A 
doctor in Council, ID who had been a State senator in the mid 
1960's had pushed through the concept of a nurse practitioner 
in an effort to reach out into rural areas where doctors were 
not or could not serve, would not serve oftentimes. But the 
application of that oftentimes ran into difficulties when 
doctors would not back up, if you will, the nurse 
practitioners.
    So while it pioneered here in Idaho in an effort to 
outreach to those rural communities--and it was successful and 
it remains successful today--in many ways it still had the lack 
of connectivity oftentimes. I'm sensing that that is in part 
what this offers.
    You talk about students in the field or, let us say, 
certainly less than the certified skilled but being fully 
monitored, or the information flowing back to a center where 
the professionals are to review it and, of course, give their 
advice from it.
    Am I thinking about this in the right context?
    Dr. Hudnall Stamm. Absolutely, Senator. Actually the 
situation you described is one of the very first applications 
of telehealth that I worked on in the early 1990's where we had 
people who were mid-level and professionals working in small 
communities scattered around, in that case the State of Alaska. 
We were able to link them using telehealth, both store-and-
forward and real-time, to people who had higher levels on 
expertise in a more urban area which allows the local providers 
to provide care to the residents so that they didn't have to 
travel away from their homes.
    It would help them stay with their social support and 
really build  a strong  network.  It allows  people  when  they 
do  have to travel to a city to be able to return home sooner 
and really, really supports continuity of care. For people who 
are aging, it supports aging in place.
    Senator Craig. With your experience now and the application 
of this knowledge, look forward if you will. Tell me what you 
see in the future as it relates to this technology and what it 
might do for us.
    You mentioned a lack of skilled people. We are in a nurses 
shortage both here in Idaho and nationwide. So I know 
technology has always been one of those--not a substitute, but 
it allows a single individual to multiply at least the 
application of their talent. I sense that can be part of all of 
this.
    But what else might you see that being?
    Dr. Hudnall Stamm. Well, one of the things that you are 
probably very familiar with, being a resident from a rural 
state and dealing with so much health care, is the concept of 
windshield time--that amount of time that circuit riders have 
to spend in the car going from patient to patient. As we build 
out our technological capacity, we're able to leave the 
provider in one location. They can visit virtually--they can 
circuit ride virtually which really may double or triple their 
ability to see patients, reducing wait time, and improving 
quality of care.
    We can also see, I believe, an increase in the amount of 
technology that is easy, that is in the home. I appreciate the 
comment about being a pioneer because that touches my heart, 
and I truly appreciate that. But some of things that pioneers 
do is that we mess with things that don't work very well. The 
technology that we have done for years has been sometimes very 
difficult.
    Now it is becoming easy. When we place it in people's 
homes, it is no longer a technological bafflement of how to 
make it work. So it becomes a very simple thing, and I think 
that is a very positive change that we are seeing in the 
future.
    Senator Craig. Well, I meant the term ``pioneer''. When we 
talk about the different definitions of health care in settings 
in national policy and we talk about frontier medicine and 
those various areas, we have areas in Idaho that are outside 
those definitions that do not fit. So in that case I think it 
is most appropriate.
    Well, thank you very much.
    Dr. Stamm mentioned in her opening comments that we had 
with us Wallace Whitehead. Mr. Whitehead was the Postmaster of 
Lava Hot Springs and has, I think, a unique first-hand 
experience to visit with us about as relates to the Senior 
Health Mobile.
    So Wallace, if you would please proceed.

  STATEMENT OF WALLACE WHITEHEAD, FORMER POSTMASTER, LAVA HOT 
                          SPRINGS, ID

    Mr. Whitehead. Thank you, Senator, for the opportunity to 
tell you my experiences with the health mobile. I thank Dr. 
Beth for her inviting me to do this. I guess she did it through 
Judy Robinson, which is a friend of both of us. I appreciate 
this opportunity.
    It's always been my experience to want to be--the program 
to come that can keep people in their homes, older people, as 
long as possible. I seen that happen through the senior citizen 
program. Especially in Lava we've had people that have still 
been working as seniors when they're 92, or 93, or 94 years 
old, and staying in their own homes. This is a very important 
part of that from the medical side of that to be able to keep 
their health.
    The health mobile started coming to Lava. They got some 
excellent personnel working in that health mobile. It has been 
a great opportunity, I think, for the students to be for hands 
on help too. It helps them, and it helps us old senior citizens 
who are needing help.
    When I went and they first talked to me about having my 
health assessment made, well, I kind of kept not wanting to do 
it and kept kind of putting it off.
    Senator Craig. You sound pretty normal.
    Mr. Whitehead. I thought, ``I don't need that.'' I'm 
healthy and everything. We do have a good program there, and we 
enjoy it.
    But they stayed with me, and they did get me to do that. As 
a result of doing that, I had no idea in the world I had high 
blood pressure. As I was doing this assessment, the young man 
took my blood pressure. Why, it was 220.
    It was a day that we had the orchestra there and playing. I 
said, ``Well, OK. I will just go dance it down,'' I said.
    Of course, the young man looked at me; and the supervisor, 
she came over. He told her what it was. Then Judy came over, 
and they all looked at me and said to each other ``do you think 
we should let him dance with that high of blood pressure? He 
probably should not be dancing.'' They discussed it a little 
bit and decided, well, it would be OK; just dance quietly; and 
you don't get carried away.
    Senator Craig. So no square dances, no polkas, just the 
waltzes. [Laughter.]
    Mr. Whitehead. I don't know why, whether it's just the 
power of suggestion; but as I did start dancing, I got feeling 
kind of funny, you know. I thought, well, so I did kind of sit 
down a little bit more and just listen.
    But that got me going to the doctor to have it checked out 
and because I'd been staying away from the doctors as long as I 
possibly could. I did not want to go to doctors. I had been 
taking my vitamins and, you know, doing all those things. We 
think we are pretty healthy.
    So my wife and I, we visited a couple of friends of ours, 
and she has had a lot of health problems. I kind of went along 
and decided--I'd looked up in my health books and decided all 
the things I needed to do to get it down.
    Then we went and visited them. She had had a little high 
blood pressure, so she had the machine. She took mine; and it 
was, I think, 175 or something then.
    So that night we decided we better go see our doctor, and 
so we did. As a result he has me on blood pressure pills, and 
he has run me though a lot of other sets of tests to check out 
everything. I wouldn't have done that if it hadn't been for 
this health mobile and if it hadn't been for these people 
working with me and getting me to get a check up on my health.
    Incidentally, another woman from Bancroft, by her doing 
this, she found out that she had breast cancer. She had no idea 
that she had it. So that was really a big help to her also.
    Others that have taken that, I'm sure it's helped them, 
too, their health--checking on their health and realizing that 
sometimes we do need those things to help us.
    The big thing I think is important, they go into the home 
to people that can't get out and things like that, which is 
very important, too. It's hard for--you get out there, and it's 
hard for people to get to Pocatello to a doctor. Incidentally, 
we do have Mike down there in the clinic, too. But even then 
you stay away from it as long as you can.
    Senator Craig. Wallace, I appreciate that testimony. All of 
the questions I was going to ask you, you have answered. I say 
that because of the idea of discovering your high blood 
pressure in large part due to the health mobile's availability. 
Obviously the examination you had tells an awfully important 
story.
    Let me also recognize Alice, your wife, who is with you 
today. It is nice to have you here. Thanks for being here.
    Your testimony, I think, is oftentimes quite typical of not 
just men, men and woman, but I think predominately men of your 
age who have largely lived their lives in a very healthy way 
and have had no illnesses to speak of and do not go get 
checkups, do not go do the things that they probably ought to 
do--or not only probably, should do simply because they feel 
well.
    I know. I have a father at 84 years of age who is testimony 
to very much the kind of health and lifestyle you have talked 
about. Through his son and daughter's urging and a wife, he 
gets his regular checkups today because as a result of one of 
those urgings he discovered he had prostate cancer. So I think 
that's an awareness that men must come to. That will save a lot 
of lives if we do. But certainly the blood pressure.
    Doctor, can they actually take blood for blood test 
purposes through the mobile?
    Dr. Hudnall Stamm. I am going to look to one of my 
colleagues because I'm not real certain about that.
    Senator Craig. Do you know if that can be done with the 
mobile?
    Dr. Hudnall Stamm. I am going to answer that question that 
technologically it can be done. I think some of the things we 
have to clear are the supervision and also the sanitation 
issues around the health mobile. I do not know whether they are 
doing that at this point or not.
    Senator Craig. I do not mean analyze. I mean simply to 
bring it in for purpose of analysis.
    Dr. Hudnall Stamm. I do not know for sure.
    Do you know, Mr. Whitehead?
    Mr. Whitehead. I do not know for sure about that, whether 
they take the blood. Then we had those health fairs. They do 
that where they take blood. When I was about 72 years old, I 
got diabetes and also prostate cancer at the same time.
    Dr. Hudnall Stamm. One of the things that the health mobile 
does do is that they work closely with the local providers. 
They park at the senior center, but they work closely with the 
local providers so that any services that the health mobile 
cannot handle, they are able to work directly with the 
providers. There have been cases where people from the health 
mobile have literally walked down the street with someone to a 
provider's office.
    Senator Craig. Excellent. Is this the point at which I am 
to have my exam? We really need to move right on to Coeur 
d'Alene and Boise, but I am going to take a moment and go back 
and have my blood pressure checked with this marvelous new 
piece of equipment. The equipment that I am being tested on, we 
are going to have a nurse back there who will explain it; but 
it is the very kind of equipment that can actually be brought 
into the home, plugged into a telephone receptacle or 
connection and as a result, immediately sent back in real-time 
to the center. So let me move back and do that.
    I guess Alice is going to testify before I have my exam. 
Alice Ennis, thanks for bringing me online. Alice Ennis is 
Director of Home Health at Saint Alphonsus in Boise. Alice is 
here, and she's going to walk me through this, I guess, at 
least explain it. Then we will go with Alice's instruction to 
the back of the room for this technology. Please proceed, 
Alice, and welcome.

   STATEMENT OF ALICE ENNIS, DIRECTOR OF HOME HEALTH, SAINT 
          ALPHONSUS REGIONAL MEDICAL CENTER, BOISE, ID

    Ms. Ennis. Thank you, Senator Craig and distinguished 
guests. Good afternoon and thank you for the opportunity to 
talk about telehome care. I would like to make some opening 
remarks, and then we will move into your examination that we 
have all been waiting for.
    Like North Idaho, telehealth's network and Telehealth Idaho 
from Idaho State University, Saint Alphonsus Regional Medical 
Center is dedicated to providing access to quality health care 
and education using telehealth technology. With this 
technology, the same standard of health care available in the 
cities of Idaho is made available to the elderly and non-
elderly in the rural communities.
    As part of the commitment, the Saint Alphonsus Foundation 
provided a grant this past year to our home health to implement 
telehome care. Telehome care will make it possible to deliver 
high-quality wound care to home-bound elderly outside of the 
Boise area.
    To illustrate the value of telehome care, I would like to 
relate the case of a real patient. Last winter a physician 
referred a patient to us who lived in Centerville. The patient 
required daily wound assessment and care. In addition, the home 
health nurse was teaching the caregiver how to do the dressing 
changes. For those 2 weeks, a nurse spent 3\1/2\ hours each day 
driving to Centerville, and spent about 30 to 45 minutes on 
each visit. This one patient consumed 4 hours of nursing care 
per day. In addition, the patient and caregiver often voiced 
their concerns about the nurse's driving to Centerville in the 
winter on the ice and in the snow.
    That scenario would be very different with telehome care 
technology. On the first day the home health nurse would admit 
the patient to service, assess the wound, start the teaching, 
install the patient unit, and provide instructions on how to 
use the equipment. That visit would take about an hour. The 
nurse may even make a visit the next day; however, from that 
point on, the visits could be done from Boise using the 
telehome technology.
    The audiovisual capabilities will make it possible for the 
nurse in Boise to see the patient, take the patient's vital 
signs, listen to heart and lung sounds, assess the patient's 
wounds and even measure the glucose level in the blood if that 
is necessary. The care giver can do dressing changes while the 
nurse observes technique and gives instructions as needed. The 
nurse, patient, care giver, and physician will agree upon the 
proper balance of in-person visits and telehome care visits 
based on the patient's needs.
    This is one example of how Saint Alphonsus home health will 
use telehome care technology. Telehome care will help Saint 
Alphonsus respond to an increasing number of the home-bound 
elderly population with increased needs and declining Medicare 
reimbursement. Later this month, Saint Alphonsus home health 
will launch the telehome care pilot project with a base unit in 
Boise. Five patient units in the Boise area and one in Jerome 
with Saint Benedict's home care staff.
    The unit you have there, Senator Craig, is an example of 
the patient care unit. The focus of the pilot will be patients 
with wounds. These patients were chosen for two reasons. They 
create a major drain on prospective payment reimbursement 
because of the cost of supplies and the need for frequent 
nursing visits.
    Second, patients with wounds make up about one third to one 
half of our patient census. With telehome care technology, we 
feel that Saint Alphonsus Regional Medical Center can provide 
home health services to under-served areas in the State.
    Telehome care home units can be placed in any home that has 
a telephone line. Wound care nurses, through a scheduled 
appointment in our office, can work with non-wound care nurses 
onsite to provide treatment options.
    Once telehome care is established, and we have demonstrated 
its value in caring for patients with wounds, we will branch 
out to other specialties--oncology, diabetes, and congestive 
heart failure just to mention a few.
    Now for what we've all been waiting for. Marilyn Richards, 
a certified wound care nurse with Saint Alphonsus, will provide 
a demonstration of the user-friendly American telecare 
equipment that you have there in Pocatello. Thank you very 
much.
    Senator Craig. Alice, thank you very much not only for that 
explanation, but also what Saint Alphonsus Regional is doing at 
this time and the outreach that will result from that.
    So now can I go to the back of the room? All right. 
Marilyn, thank you. I am wired so I can move and talk at the 
same time.

DEMONSTRATION BY MARILYN RICHARDS, CERTIFIED WOUND CARE NURSE, 
                  SAINT ALPHONSUS HOME HEALTH

    Ms. Ewert-Neilson. We are going to wait for the phone to 
ring; and when the phone rings, we're going to press the green 
button. You'll see your picture right here. Then when they 
convert it over, you'll see them, and they will see you. When 
the phone rings, press your button.
    There you are. It takes 30 seconds for it to convert over, 
and then when this 30 seconds has completed and it is it is 
just the plain old telephone system which we are connected to--
you will see their picture, and they will see yours. You can 
see how many seconds have arrived with the counter is showing 
us.
    Senator Craig. All right.
    Ms. Ewert-Neilson. Like Alice was saying, six of these will 
be placed in the community, and the central station will stay 
in Boise. The nurse will be able--there is your nurse.
    Senator Craig. I am now on their screen.
    Ms. Richards. Can you see me?
    Senator Craig. Yes, I can. Marilyn, give us your full name 
again and what you do.
    Ms. Richards. Marilyn Richards, and I am a certified wound 
care nurse for Saint Alphonsus Home Health.
    Senator Craig. Wonderful. I do not think I have any wounds 
today that I know of, but please proceed.
    Ms. Richards. Well, I appreciate you being our patient 
today. It gives us the opportunity to test the equipment. Since 
we have not had an opportunity to come and instruct you in the 
use of the equipment, Paula will help you, and I will as we go 
along.
    Senator Craig. All right.
    Ms. Richards. OK. Let's start by taking your blood 
pressure. Paula will help you put on the blood pressure cuff. 
Tell me when you are ready.
    Senator Craig. I am ready.
    Ms. Richards. OK. Great. I am going to activate the remote 
blood pressure, and you should feel it start pumping in a 
second.
    Is it working?
    Senator Craig. Yes, it is now.
    Ms. Richards. OK. You will be able to see your blood 
pressure on the monitor there in front of you, but I will not 
bring it up on my screen to protect your confidentiality.
    Senator Craig. Now it's going back down, you see. How 
fascinating. OK. Now that the pressure is coming off from the--
--
    Ms. Richards. Can you see it on the monitor?
    Senator Craig. Yes.
    Ms. Richards. OK. Great. Now you can push the blue button 
and take off the cuff, and that will erase it.
    Senator Craig. OK. How about that.
    Ms. Richards. I would like to listen to your heart.
    Senator Craig. All right.
    Ms. Richards. Your lungs. No one else will be able to hear 
that because I will have on a set of headphones.
    Senator Craig. Oh, all right.
    Ms. Ewert-Neilson. Now, here is the picture for you to look 
at so you can see where she would like you to place it.
    Senator Craig. Yes.
    Ms. Richards. You should have a card showing you where to 
place it. You definitely have a heart. [Laughter.]
    Senator Craig. Thank you for saying that. Some people think 
I do not.
    Ms. Richards. Now over to the other side. OK. That sounds 
great. Go ahead and put the stethoscope away.
    Senator Craig. OK.
    Ms. Richards. Next we would like to have you step on the 
scale, if you would like to.
    Senator Craig. With or without my shoes? [Laughter.]
    Ms. Richards. Nobody will know.
    Senator Craig. Well, I am what is known as random security 
today. My shoes have already been off at the Cincinnati 
airport.
    Ms. Richards. Now, I could also bring this information to 
my monitor; but I will not today.
    Senator Craig. OK.
    Ms. Richards. OK. Thank you. The last thing we would like 
to demonstrate is the ability of this equipment to do 
medications.
    Senator Craig. Oh, yes. OK.
    Ms. Richards. You can see what I see.
    Senator Craig. All right. [Holds up bottle to camera.] It's 
getting readable.
    Ms. Richards. Now you'll be able to read medication labels 
and also do prescriptions. OK. Great. That completes our 
demonstration.
    Do you have any questions?
    Senator Craig. Well, no, but I all of a sudden sense why a 
novice or someone who is inexperienced with technology would be 
willing to use this because you are here.
    Ms. Richards. It is very simple to use, too.
    Senator Craig. It is simple, and it is interactive. There 
is actually a face and a person talking to you, and that is 
probably very helpful to someone who might be a little 
skeptical about the use of this kind of equipment.
    Ms. Richards. I appreciate you being a patient today.
    Senator Craig. Thank you. Now tell me about the use of this 
technology for a wound. You mentioned that as an application of 
the type of person that you are seeking out with this 
technology. How would that work?
    Ms. Richards. What we would have is a camcorder that we 
would be able to use so we will be able to look at the wound 
and what is going on. If there's an infection going on, we'd be 
able to see that also.
    Senator Craig. So this camera that comes with it is not the 
camera that would be used to examine the wound?
    Ms. Richards. No.
    Senator Craig. OK. Well, thank you. I'll tie my shoes and 
go back to the table. How is that?
    Well, Alice, thank you very much for allowing us not only 
to see that technology, but see it in action. I think that is 
even more exciting.
    Do you have anything further or any further comments to 
make in relation to that technology.
    Ms. Ennis. My only comments are that we are very excited 
about having it and anxious to get it up and running and to 
demonstrate the value that it is going to be. I thank you for 
the opportunity.
    Senator Craig. Thank you. Dr. Beth was suggesting that we 
might have made history today, that your guinea pig in this 
instance was a Senator. I think that is what she was 
suggesting. [Laughter.]
    Dr. Hudnall Stamm. I don't think it's in the Congressional 
Record anywhere else. [Laughter.]
    Senator Craig. Well, thank you very much. Now we are going 
to go to Coeur d'Alene.
    Tom, thank you for joining us. Tom Hauer is Director of 
Telehealth at North Idaho Rural Health Consortium.
    Tom, are you going to lead off here with your testimony?

STATEMENT OF TOM HAUER, DIRECTOR, TELEHEALTH, NORTH IDAHO RURAL 
              HEALTH CONSORTIUM, COEUR D'ALENE, ID

    Mr. Hauer. Yes. If I could, I would like to give you a 
brief overview of what we have been doing up in the northern 
part of the State, and then I will turn it over to our real 
witness here who has had some experience doing this real-time, 
Dr. Miewald. But first I thought I'd give a brief overview.
    I'd like to first thank Beth for setting this up so that--
inviting us so we could join in. We also have other sites that 
have joined us in the northern part of the State. Bonner 
General Hospital in Sandpoint is also on the connection here 
along with Wallace High School and Beniwah Community Hospital 
in St. Marie's. So we have got quite a number of people that 
are joining in just to watch today.
    Senator Craig. Did you see my blood pressure, Tom?
    Mr. Hauer. No, we couldn't see it very well up here.
    Senator Craig. I was just checking to make sure Alice was 
true to her word. [Laughter.]
    Mr. Hauer. I'd take her word for it.
    Senator Craig. Please proceed.
    Mr. Hauer. The North Idaho Rural Health Consortium is a 
consortium of five county hospitals that in 1991 formed a 
group; that their group's objective was to provide a regional, 
integrative approach to the delivery of rural health care; and 
they joined forces to share all their objectives--or to share 
their resources to try to provide better health care for rural 
north Idahoans in the north part of the State.
    I came on board in 1996. Five years later we purchased our 
video conferencing equipment, and the objective at the time was 
to provide professional education to physicians and other 
health care professionals up here. That could mean weekly we 
bring in a speaker to provide continuing medical education for 
the physicians, and we broadcast those to our four neighboring 
county hospitals so that those physicians can take advantage of 
those speakers.
    I also got involved in some of the trials, some of the 
early clinical applications which were to provide surgical 
follow-up for some surgeries where the physician or the surgeon 
would need to check range of motion or simple things where they 
would not need to get their hands on the patient. We have also 
been doing cancer conferences which are where you have a 
patient that has a tumor that is not defined easily and the 
physicians can get together and discuss what's the best course 
of treatment.
    We've been doing those things since 1996, and in year 2000 
we were approached by some of the other community groups that 
were interested in seeing if telehealth could benefit their 
organizations. These groups were not only the hospitals, but 
some of the mental health providers locally, the school 
districts, and their special services group which take care of 
special service needs children, the Idaho Department of Health 
and Welfare, some of our local judicial system members, and 
then a school up in Bonners Ferry which is the private school 
for troubled adolescents. We sat down with all these people 
that have diverse needs. We said ``look, we have got this 
equipment, and we have got the means to provide some of these 
services to you. Let us talk about what your needs are, and let 
us plan a course of action and try to see what we can do.'' So 
that group had a representative from each group meet for about 
a year. We analyzed our needs; we analyzed what types of 
systems we had in place, what types of technology we had and 
where--was the technology compatible or not; and the group then 
selected two pilot programs.
    This was a year ago, approximately, where we would see if 
this could work clinically. The two pilot projects that were 
selected were mental health and special needs children. The 
mental health pilot, Dr. Miewald is going to speak to here in 
the second, that was something where he is seeing patients that 
he has a relationship with already.
    Then the other pilot program is special needs kids, and 
that is in conjunction with two of the school districts that we 
are starting this pilot with. It will provide physical therapy 
and occupational therapy from physical and occupational 
therapists at Bonner General Hospital to two of the school 
districts in the Kellogg area and St. Marie's.
    So we are really excited about this, and we are also 
excited with the fact that you are in a position to help us out 
with an appropriation, we understand we received early this 
year that will go toward making these pilot programs a reality. 
So we really appreciate that and want you to know that.
    I know this hearing is focused mainly on the geriatric 
population in a rural setting. While our pilots do not go after 
the geriatric population, I think some of the lessons we have 
learned and will be learning over the next year can easily be 
transferred to some of those programs. So we are excited that 
Beth has brought us onboard with this statewide effort to 
coordinate telehealth and that we can share some of those 
things, some of our experiences and then learn from some of 
their experiences in the south and southwest, southeast also. 
Please keep that in mind as you're listening to Dr. Miewald as 
these are some of the things I think we can go forward and 
learn from.
    I will introduce Dr. Miewald. He is a psychiatrist here in 
Coeur d'Alene. He did his undergraduate and graduate work at 
the University of Montana. This is long. [Laughter.]
    He received his M.D. at the University of New Mexico. I 
will not go through all of what he did in Pittsburgh, but he 
has been here since 1990 working in conjunction with Kootenai 
Medical Center, and behavorial health here. He is now the 
attending Psychiatrist at Kootenai Medical Center and the 
Medical Director of Child and Adolescent Psychiatric Clinic, 
and the Medical Administrator of the Outpatient Residential 
Youth Services at North Idaho Behavioral Health.
    I also want to thank him because he has been a driving 
force to making telepsychology a reality up here. So I'll turn 
it over to Dr. Miewald.
    Senator Craig. Dr. Miewald, welcome.

  STATEMENT OF DR. MIEWALD, ATTENDING PSYCHIATRIST, KOOTENAI 
   MEDICAL CENTER; MEDICAL DIRECTOR OF CHILD AND ADOLESCENT 
PSYCHIATRIC CLINIC; AND MEDICAL ADMINISTRATOR OF THE OUTPATIENT 
    RESIDENTIAL YOUTH SERVICE, NORTH IDAHO BEHAVIORAL HEALTH

    Dr. Miewald. Thank you. Senator, I want to thank you for 
two things. One is, again, what Tom was mentioning about all of 
your support through the Senate to get the funding so we can 
get more resources to expand telepsychiatry. I also want to 
thank you for pronouncing my name right. It's one that most 
people have trouble with. [Laughter.]
    Tom is being a little too modest about what he and all the 
other people on the committee have been doing. I kind of came 
into the picture a little bit late.
    What happened was I have a lot of different projects that 
I'm involved with. As Tom mentioned, one of them is an 
administrative position at North Idaho Behavioral Health which 
is part of Kootenai Medical Center. The other part is I have 
had a contract for many years to do consulting for family and 
children's services through the Department of Health and 
Welfare. So when I got appointed to this committee for 
telehealth, it just made a lot of sense to try to expand it to 
the clients that I see through family children services.
    What I do through that contract is I do evaluations and 
then follow-up appointments for children, adolescents for the 
whole northern region. It has been a problem to have the 
children and their families and case workers to have to come 
into Coeur d'Alene for these follow-ups, especially in the 
winter. It is often a real long drive from Bonners Ferry or the 
Silver Valley. Sometimes they have to cancel or they show up 
late. So what we have done is we've done really what I call 
more of a pilot, pilot project to try to work some of the bugs 
out of doing follow-up appointments over the telehealth hookup.
    So I have seen probably a total of five or six different 
individual patients. Several of them I have seen for two or 
three times. So I am guessing I have probably done a total of 
ten or so appointments over a several-month period since last 
fall. I've seen clients from Sandpoint, from Bonners Ferry, and 
from Kellogg. Though we haven't done any formal studies, that's 
kind of the next step that we're trying to develop with Dr. 
Stamm and the rest of the group, but informal follow-up has 
been very positive.
    The patients and their families and the case workers all 
have been very positive in their feedback. They mostly cite how 
much more convenient and safe it is not having to drive down 
here. Most of the kids like kind of the cool part of the 
television. They fool around with the zoom and move it around 
and all that; but usually after 5 or 10 minutes they kind of 
settle down and, to me, act pretty much like they would 
normally act and talk as if I was seeing them live.
    So the case workers who are usually distant with the 
patient and the family have felt that the follow-up has been 
just as helpful as it would be if it was live. The families and 
the patients have all felt that they have at least--they have 
told me that they have all received just as good a service as 
if they had come into Coeur d'Alene and seen me face to face.
    So I think the next place that we want to expand--and I 
have been talking with the other psychiatrists here in Coeur 
d'Alene--is to expand the number of patients that we are seeing 
and then the age range. I think it is more just coincidence 
that I have worked mostly with children. There is no reason why 
we cannot be using this technology for all age groups. Again, I 
think it would be a lot more convenient for the patients and 
their families to not have to drive in.
    The biggest problem--the technology is really tremendous. I 
am very impressed with the quality of the sound and the picture 
is very good. The biggest problem we have had is scheduling 
where my schedule, the patient's schedule, the schedule for the 
hookup here in Coeur d'Alene, the schedule for the remote 
hookup, that has really been the major stumbling block. I think 
we can work around that. We are hoping to use some of the 
additional funding we have gotten to be able to buy further 
hookups. I think that has a tremendous potential there.
    For example, we have a lot of patients that are in long-
term residential programs here in Coeur d'Alene, but their 
families are down in Idaho Falls or Saint Anthony's or 
something like that. I think it would be a tremendous help to 
be able to do family therapy over the television. Right now we 
are probably stuck doing it over the old telephone. That is one 
area that I think there is lots of potential.
    That is about all the comments I had. I do not know if 
anybody has any questions.
    Senator Craig. Doctor, a couple of questions as it relates 
to the experience you have had to date. I gather from your 
testimony that you feel that this is serving your clients or 
your patients adequately and as adequate as if it were a face-
to-face, in person, kind of, consultation or relationship.
    Dr. Miewald. Yes, I do. We have not done any initial 
evaluations. Apparently in some other States like Nebraska and 
Kansas they will even do initial evaluations. But so far we 
have pretty much kept it to follow-up appointments.
    Senator Craig. As a provider, what has your experience been 
with reimbursement through telehealth services? Any problem 
with that?
    Dr. Miewald. Not yet. But that is the fluke of how we have 
set it up is that I have just continued to charge Health and 
Welfare the same rate I would charge them if I was seeing the 
patient live. So from my end, it has not been an issue.
    We are trying to work with Medicaid to do a pilot project 
to look at reimbursement for telehealth for Medicaid clients. 
That is a concern some of the psychiatrists have raised is 
whether they will be getting paid for this work or not. But for 
me individually it has not been an issue so far. It has saved 
the state money, I think, because, if nothing else, they have 
not had to pay for the case workers to drive down, pay 
reimbursement for the travel time and all that. I don't think 
anybody is keeping track of that, but I think it has saved the 
state a little bit of money in that way.
    Senator Craig. All of your clients to date have been state 
or state reimbursed?
    Dr. Miewald. Right.
    Senator Craig. You mentioned Medicaid. Are you sensing 
there would be a problem, or is there just a necessary 
procedure you feel you have to go through to identify?
    Dr. Miewald. Well, my understanding is that right now 
Medicaid will not pay for telehealth services. The director has 
said that they will be willing to do that in a very small pilot 
project here while we are gathering data on patient 
satisfaction and then savings and things like that. So for 
right now my understanding is we have approval for this pilot 
project. It's certainly not the routine setup at all.
    I also understand that Medicare will pay for telehealth; 
but to my knowledge, nobody in Idaho has done that yet. So it's 
actually gone through and tried to bill Medicare for that. The 
rumor on the street is that that is reimbursed at Medicare 
rates.
    Senator Craig. I'm getting a positive response from here in 
the room, so there has apparently been some experience and/or 
knowledge about that.
    Doctor, again, thank you very much for giving us some 
firsthand experience of the kind that I think clearly in 
building the record to the application of telehealth is 
extremely important.
    Tom, do you have anything additional you would like to add 
or comments you would like to make?
    Mr. Hauer. If I might, I would like to introduce Mary 
Hendrickson who will be taking the lead in the physical 
therapy, occupational therapy portion of this. She is up in 
Sandpoint.
    Mary, can you hear us?
    Ms. Hendrickson. I can. Good afternoon.
    Senator Craig. Mary, thanks for joining us.

                 STATEMENT OF MARY HENDRICKSON

    Ms. Hendrickson. Thank you. This is a great opportunity for 
us to be able to interface with you, sir. Let me start by 
thanking you very, very much with regard to the help that you 
have given us with regard to the appropriation.
    This appropriation will definitely further our opportunity 
to advance telehealth. We have been so fortunate in the north 
here to have the bi-northern county hospital administrators 
supporting Tom and I and Dr. Miewald as we have forged forward 
in the effort to bring telehealth to the point that it is here 
in the north. We are incredibly proud of where we have been up 
to this point and where we are going now.
    Because we have forged also forward in this opportunity to 
bring the other community leaders involved in this project, one 
of the things that we have done is to work very closely with 
the school districts. We were fortunate enough to have a school 
nursing grant that we did most of it through the interactive 
video conferencing equipment. It was also through the Office of 
Advancement of Telehealth is where that funding was 
administered.
    In the process of doing that, we were able to develop just 
an incredible relationship with the superintendents as well as 
with the school nurses; and given that opportunity, we 
continued in that effort as we decided what projects we were 
going to take on.
    Our larger telehealth working committee, as we decided on 
the two pilot projects that we were going to work on we looked 
at something that was already funded and mandated and funded 
because we knew that the State of Idaho at this point in time 
Medicaid-wise was not paying for telehealth services. So we 
knew that we had to take that project on separately.
    So as we looked at what was already currently mandated and 
funded, as what you can tell, too, from what Dr. Miewald has 
testified, that we looked at psychiatric services because that 
is being paid for at the state level. In addition to that--and 
also because of our highest need.
    In addition to that, then we looked at the occupational 
therapy, speech therapy, and physical therapy needs of special 
education students in the school districts. It is mandated and 
funded, sir; but in addition to that, it also is an opportunity 
where there is a great health shortage as far as health care 
professionals and especially here in the north.
    We are fortunate enough here at Bonner General Hospital in 
Sandpoint to have a leader that has hired Dean Tompt who has 
allowed us to hire occupational therapists and physical 
therapists. We have got a full complement of rehab staff and an 
excellent rehab program so we are now able, with this 
appropriation funding, we will be able to put our pilot project 
into full fruition, and we will be able to provide those 
services to students that are down in the Wallace, St. Marie's. 
This would be car-wise a minimum of a 2-hour to 3-hour drive, 
and you can imagine what that is like in the winter time and 
the mountainous roads.
    We so far have conducted three occupational therapy and 
physical therapy sessions with the students via this current 
interactive video equipment. With the additional roll-around 
units, things will become enormously easier plus infinitely 
more expanded because of the fact that we will have the 
different stethoscopes, et cetera; otoscopes, ear scopes, those 
kind of things that you've kind of seen today.
    One of the biggest advantages that we have found, sir, is 
the peer-to-peer contact. We have one occupational therapist 
down in the St. Marie's area that was on the other end helping 
with the student visits, and what she found was enormous by 
being able to connect with a therapist here because of the 
isolation. That is one of the things that Beth has mentioned as 
well.
    So the benefit of the mobile interactive units, as I've 
said, will greatly enhance what we are able to do here in the 
north.
    Again, I thank you and appreciate the opportunity to be 
here today.
    Senator Craig. Well, thank you very much. By my schedule 
here, you are a surprise witness; but I am tickled to death Tom 
has connected you in because--I mean, not only for those of us 
sitting here at Idaho State University in the south because for 
you to come almost instantly on screen and give us your 
firsthand experience, I think, demonstrates the value of this 
technology.
    Ms. Hendrickson. Thank you, sir.
    Senator Craig. This was going to be a three-community 
hearing today; we have gone to four.
    Tom, are there anymore? [Laughter.]
    Mr. Hauer. I believe that Wallace High School and St. 
Marie's are also listening in, but they are not going to be 
speaking.
    Senator Craig. Well, thank you all very much.
    Tom, any additional comments before we come back to 
Pocatello?
    Mr. Hauer. No. I think we are finished here. Thank you very 
much.
    Senator Craig. Thank you. Well, let me thank all of you 
here in Pocatello and in Boise and in Coeur d'Alene and in 
Sandpoint for joining us today not only to get firsthand 
testimony as to the application of telehealth, but to actually 
see the technology function and to begin to sense how valuable 
this can be to transmit to a center to the expert, if you will, 
the kind of information where diagnosis or assistance can be 
offered that might not be able to be offered, and then the 
sheer time and distance.
    I think all of us who live here in Idaho understand the 
issue the mayor was talking about--the snowy roads or waking up 
in the morning and knowing that you simply cannot physically 
get from point A to point B because of the road conditions that 
are oftentimes the case here in the winter time. So it is 
extremely important. This application, I mean, just fits Idaho 
so very well.
    Of course, Beth, you came from Alaska with the experience 
you have had up there. Of course there, it is even all the more 
important from the standpoint of distance. Roads do not even 
exist in some of those places that I am sure that you 
experienced or provided service to. So I played a small role. 
But to watch these appropriations get on the ground and begin 
to work and know that they are providing real services to 
people that might not otherwise have the quality of service 
makes this all worth while.
    As we reshape health care in States like Idaho, I think all 
of us were tremendously concerned when we saw payment levels 
and reimbursements either flat and, in some instances, adjusted 
and/or declining and small rural hospitals closing. Many 
communities were extremely fearful that we simply would not be 
able to provide--have provided to those communities the quality 
of health care that they had in the past. I think that is less 
the case now with technology; and, of course, I'm always amazed 
at the application of technology.
    I was telling Dr. Beth that I was on an airplane recently 
where a doctor was sitting beside me, and we got to talking. He 
had just been assigned to a new program at Wayne University 
Medical School, and his talent was that he had developed a new 
software package that was applicable to the very technology 
that we have here today. You simply move it through a computer 
and through this new software package on its way into 
transmission and it becomes almost fully real-time. It takes 
away the slight lag time that we all experienced here today so 
well that they are now using it to--Wayne University doctors 
just conducted a surgery at a hospital in Los Angeles via this 
technology by actually hands on and helping actually manipulate 
the devices that were conducting the surgery.
    Of course this doctor, as I was telling Dr. Beth, happened 
to have the software package right along on his laptop and 
showed me a blow-by-blow account of the surgery. It was a gall 
bladder removal.
    But the point is that it is all happening out there now in 
a way that is certainly going to facilitate rural Idaho.
    As I close, let me remind folks that we have an ice cream 
social as we go out this evening to--we are going to go out and 
see the van, have a chance to see that and share some ice 
cream. This is going on in a couple of other locations for 
those of you who attended to enjoy the ice cream.
    Also I want to thank the Chairman of the full committee in 
Louisiana. John is the Chairman of the Special Committee on 
Aging in the Senate. We have a very positive working 
relationship, and thanks to him we were able to bring this 
field hearing to Idaho today.
    Where is Phil? Phil, take your bow. Phil is on staff with 
the Special Committee, and I want to thank you also for coming 
out and helping facilitate this hearing today.
    All of this becomes a record of the committee. As some of 
you may know, this is not an authorizing committee; but the 
special committee itself plays a very valuable role both in 
hearings, investigative work, scoping, all of those kinds of 
things to analyze the problems of the senior community of 
America to develop the reports.
    Oftentimes our material goes directly to the Finance 
Committee itself which is charged with Medicare, social 
security, and a variety of the health care areas that we 
oversee through this committee and, therefore, then hand our 
reports through to them. So this will all become part of the 
record; and it enhances not only further application here in 
Idaho, but my guess is it will help across the county.
    So thank you all for coming out today, and a very special 
thanks to Dr. Beth and the center here and the work you do. 
Obviously your outreach statewide was very evident by the 
contact and the relationships today. So thanks to you and your 
work and the work here at Idaho State.
    With that, the field hearing will stand adjourned.
    [Whereupon, at 6:10 p.m., the committee was adjourned.]

                                   - 

</pre></body></html>
